L.121
UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON , D. C.

20580

Division of Marketing Practices
Laurie Meehan
Attorney
Direct Dial

202- 326- 3755

VIA FACSIMLE AN U. S. MAL
March 20 ,

1997

David Parridge
Meredyth P. Parridge
Regulatory Support Servces , Inc.
2608 Duffy Cour
Richmond , VA 23233
Dear Mr. Parridge:

I apologize for the delay in responding to your inquiries. You have requested staff
opinions or clarifications on the following matters: 1) whether a statement regarding exposure
incidents complies with the Funeral Rule; 2) whether prices on separate price lists may differ
only with respect to " unique " items offered on a paricular list; 3) whether package prices based
on items unique to a paricular nationality may be offered only to those persons of that
nationality; 4) confirmation that funeral homes may charge a fee for a translator; and 5)
confirmation that the General Price List and Statement of Goods and Service , with their specific
disclosures , should be supplied to the customer in English.
First , you have inquired as to whether the inclusion of the following statement on a
Statement of Goods and Services complies with the Funeral Rule:
In the event of an exposure incident , as defined under applicable OSHA
regulations , involving blood or other potentially infectious materials !Tom the
decedent and a member of the funeral home staff, the funeral home is hereby
granted permission to test appropriate samples !Tom the decedent for evidence of
infection with Human Immunodeficiency Virus (HI), hepatitis B virus (HBV),
and hepatitis C virus (HCV) and to use the results of such testing for furter

evaluation and management of the exposure incident , including disclosure of the
test results to the exposed staff member.

The Funeral Rule requires that funeral providers give consumers accurate , itemized price lists
make disclosures regarding certain funeral goods and service and prohibits funeral providers
from making certain misrepresentations regarding fueral goods and services. The Funeral Rule
does not address exposure incidents or the permissible methods for dealing with such incidents.
Thus , we can neither express approval nor disapproval of the proposed exposure incident
statement.
Second , you raised several issues in your letter regarding different General Price Lists.
The Funeral Rule requires that funeral providers produce a General Price List to consumers that
contains an itemized price list and certain disclosures at the beginning of any discussion
regarding funeral arrangements. 16 C.F. R. 9453. 2(4). Under certain circumstances , funeral
providers may offer alternative price lists for special groups. Specifically, funeral providers may

offer a different General Price List for funeral goods and services for an infant. Furter , a funeral
provider may enter agreements with religious groups or bural societies to provide funerals at a
discounted price. However , even these alternative price lists must provide all items and
disclosures as required on the General Price List. I have enclosed a copy of the FTC publication
Complving with the Funeral Rule , which discusses the issue of alternative price lists on page 18.
Your letter questions whether prices must be identical on a General Price List given to al1
customers versus a General Price List given to customers who are members of a specific group.
If you propose offering different General Price Lists for different ethnic groups , based on the
inclusion of services which are appropriate for different groups , the prices for " like " items would
need to be consistent. Therefore , items that are " unique " to particular services may be included

on a paricular price list , but the prices for the required itemized goods and services must remain
the same. If you are offering discounted prices to a particular group, the prices need not be
identical Further , the discounts that you offer to members of groups may include items unique
to that group or items common to al1 funeral services that you offer.

Third , you requested clarfication with respect to offering discounted packages to Asian
customers. Under the Funeral Rule , you may offer certain discounted packages to members of

groups that you have entered into arangements with. Note: if these discount prices are provided
to the large m ority of your customers , the discount prices would be the actual prices and , thus
the General Price List provided to al1 customers should reflect that. As I mentioned above , I
have enclosed the FTC publication
Complving with the Funeral Rule which addresses the issue
of discounted prices on page 13. If the package or discount is par of a special arangement with
an Asian group, you may provide discounted services , but the price list for those services must
stil1 comport with the requirements of the General Price List. Furher , the FTC expresses no
opinion regarding the legality or propriety of offering separate prices for different ethnic groups
under state or federal laws that address discrimination based upon race or national origin , but that
are not enforced by the FTC. The opinions expressed in this letter are confined solely to the
application of the Funeral Rule to the issues raised.

Fourth , you requested that staff confirm the statement that a fee for a translator is allowed
under the Funeral Rule. The FTC does not regulate the prices charged by funeral providers. The
purpose of the Funeral Rule is to make price information readily available to consumers and to
enable them to do comparative shopping for funeral goods and services. Thus , the services of a
translator , if so required , may be subject to a fee or charge by the funeral home under the Funeral
Rule. An itemized disclosure on the GPL regarding the fees or charges for translators , however
would be appropriate.

Finally, you requested written confirmation that the required disclosures on the General
Price List should be provided in English due to the Rule requirement of specific wording of the
disclosures. The Funeral Rule provides for several specifically worded disclosures. Given the

difficulty that you raise of translating these terms verbatim into a different language , staff
recommends providing the General Price List and Itemized Statement of Funeral Goods and
Services in English to comport with the specific disclosures of the Funeral Rule. If you wish
you may also disclose them in other languages , as long as the English disclosures are provided as
well.
FTC staff are pleased to hear of the high compliance rate you observed in Virginia.

Please be advised that the views expressed in this letter are those of the FTC staff. They
have not been reviewed, approved or adopted by the Commission , and they are not binding upon
the Commission. However , they do reflect the opinions of those staff members charged with
enforcement of the Funeral Rule.

I apologize again for the delay in responding to your inquiry.

Sincerely,

Laurie Meehan
Funeral Rule Enforcement Staff

Enclosure

UNITED STATE OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON , D. C. 20580

Division of Marketing Practices

Laurie Meehan
Attorney
Direct Dial

202-326- 3755

December 5 1996

H. Stephen Hars , Jr,
Alston & Bird
One Atlantic Center
1201 Peachtree Street
Atlanta, Georgia 30309- 3424
Dear Mr. Haris:

I am wrting in response to your request that Federal Trade Commission ("FTC" or
Commission ) staff review your client' s proposed business plan as it relates to the FTC'
Funeral Rule, 16 C, F.R Par 453, Specifically, you asked for a staff opinion addressing the
following issues: 1

whether, by virtue of its provision of services , your
client would be considered a " fueral provider " as
that term is defined in 16 C. F.R 9 453. 1(i);
whether, and the extent , if any, to which the Funeral
Rule , 16 C. R. Par 453 is applicable to the
proposed services to be offered by your client; and

whether, and the extent , if any, to which the
Commission would regard any aspect of your
client's services to violate the Funeral Rule.
At the outset , it is useful to note that an essential purose of the Funeral Rule is to
ensure that consumers have access to sufficient information to permit informed purchase
decisions , that consumers are not required to purchase items they do not want and are not

Initially you requested a Commission opinion, but later, by letter dated October 3
1996 you amended your request and now seek a staff opinion.

required by law to purchase and that misrepresentations are not used to infuence consumer
purchase decisions, " Statement of Basis and Purose , Funeral Industry Practices Trade
Regulation Rule , 59 Fed. Reg. at 1593 (Januar 11 , 1994) (reprinted from the 1982 Statement of
Basis and Purose), To a large extent, our conclusion must be driven by this essential purose of
the Rule.
In
implementing your client's plan , we would urge that the client also keep this
uppermost in his or her mind.

Is your client a " fueral

provider "

withn the term as defined by the Funeral Rule?

First , the Funeral Rule defines a " funeral provider" as " any person , parnership or
corporation that sells or offers to sell fueral goods and fueral services to the public. " 16 C. F .
9 453.l(i). The Rule fuher states that ''' fueral goods ' are the goods which are sold or offered
for sale directly to the public in for use in connection with fueral services. " 16 C.
9453.l(h). " Funeral services " are defined as " any services which may be used to: (1) care for
and prepare the deceased human bodies for bural , cremation or other final disposition; and (2)
arange , supervise or conduct the fueral ceremony or the final disposition of deceased human
bodies, " 16 C, F.R 9 453.10).
As set forth in your letter dated July 31 , 1996 , your client intends to offer , in par
(e)

to enter into agreements with fueral providers
(which , by entering into such agreements will
becotne members of the Company s " network"
obligating those fueral providers to provide the
following information and packages to the
Company and/or the Company s customers , where
requested by any such customer:
(I)

information specifically requested by any customer
including: (A) the general price list of any network
members ' fueral goods and services; and (B) the complete
price lists of an caskets and vaults offered by any network
member; and

(ii)

(f)

fueral packages (at discounted prices where discounts can
be negotiated) and/or discounts on some or all ofthe goods
and services on the providers ' general price lists; and

to obtain on behalf of the consumer, at the time of death , from
reputable fueral providers, at a discounted price where such can
be obtained , the specific fueral-related goods and services
selected by the consumer (including any discount applicable to any
package selected), or the alternatives chosen by the consumer
family at the time of death , in lieu of those selected by the
consumer;

(g)

where requested by the consumer, to provide varous services at
the time of death , including contacting the selected fueral
director, informing the fueral director of the selections made by
the decedent , making other arangements such as travel
arangements , flower delivery, lunches and lodging;

Although several ofthe proposed offerings of your client may be within the definition of " fueral
services " under the Funeral Rule , nothing in your cOITespondence indicates that your client win
sell or offer to sell " fueral goods. " Thus , because the Funeral Rule defines a fueral provider as
and fueral services , your client , operating as
an entity sellng or offering to sell " fueral goods
described in your letter, would not be considered a " fueral provider " as that teIT is defined in
16 C,

R. 9 453.1 (i) (emphasis added),

II.

Is the Funeral Rule applicable to your client's proposed service?

To address your second question , we begin by noting that the Funeral Rule requires
make certain required disclosures , avoid
misrepresentations , and/or comply with preventive requirements. 16 C, R. 9 453. et seq
fueral providers to provide accurate price infoITation ,

Even though your client, under the facts described in your letter, is not technically
covered by the Funeral Rule, some of the proposed services raise issues with respect to the
disclosures required under the Funeral Rule. For example , your client proposes to infoIT " the
consumer of his or her rights under the Funeral Rule, including the right for the consumer at any
time (and the right of the consumer s family) to obtain wrtten general price lists of all goods and
services of any fueral home , including, but not limited to , the individual prices on such general
price list of all component goods and services of any package which the consumer may have
selected. " The Compliance Guide states , however , that " (fueral providers) must offer any
in addition to and not in place of the required itemized prices. See 16 C.
package fuerals
2(b)(6).
Your
client's proposed service implies that consumers may select packages and
9 453.
then , upon request, receive itemized pricing. Even though your client intends to negotiate on
behalf of consumers with fueral providers for discounted packages, it is importt that
consumers receive the itemized price list along with any package price list for the services and
goods, Furher, in the context of your client's role as an agent for a consumer , your client must
relay all Funeral Rule disclosures, approvals and/or preventive requirements to the consumer.
, and to the extent to which, your client serves as an agent for any fueral provider in
the network of providers , your client would be directly responsible for providing consumers the
necessar disclosures and price lists for that fueral provider and complying with all other
requirements under the Funeral Rule.

This does not mean that your client would not be within the general jursdiction of
the FTC under Section 5(a) of the FTC Act, 15 U, C, 9 45 (a), to tae

action against persons

engaging in unfair or deceptive acts or practices in or affecting commerce.

II.

Do any of your client's proposed services violate the Funeral Rule?

A general review of the services that your client proposes to offer , as described in your
letter, does not reveal any practice that would clearly violate the Rule. However , your client.
proposes to provide consumers with a wide range of information and services regarding fueral

goods and services , and because the proposal is broad and generally states that it will comply

with the Funeral Rule , we are unable to deteITine at this time whether any of your client's
activities will , in practice , violate the disclosure requirements of the Funeral Rule, Once your
client actually offers these services and provides infoITation to consumers , the Commission
would be better able to deteITine whether your client's proposed plan , as implemented , violates
the Funeral Rule in any respect.

Please be advised that the views expressed in this letter are those ofthe FTC staff, They
have not been reviewed , approved or adopted by the Commission, and they are not binding upon
the Commission, However , they do reflect the opinions of those staff members charged with
enforcement of the Funeral Rule.

Sincerely yours

Laure Meehan
Funeral Rule Enforcement Staff

